Supreme Court, U.S.
FILED

WAIVER

DEC 0 4 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

No. 19-668

Courtney Bird

State of Hawaii, et al.
(Petitioner)

(ReSpondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

December 4, 2019

(Type or print) Name

Ryan M. Akamine
Mr.

Firm

❑ Mrs.

❑ Miss

Department of the Attorney General, State of Hawaii

Address

425 Queen Street

City & State
Phone

❑ Ms.

Honollulu, HI

808-586-1494

Zip
Email

96813

Ryan.M.Akamine@hawaii.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIR ED.

RECEIVED

CC: Kenneth S. Robbins

DEC 11 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

